No:

IN THE
SUPREME COURT OF THE UNITED STATES

LUZ HERNANDEZ,
Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, LUZ HERNANDEZ, through undersigned counsel and pursuant to Sup. CT.
R. 29.2 and 28 U.S.C. § 1746, declares that the Petition for Writ of Certiorari filed in the above-
styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk of
the Supreme Court of the United States, on the 10th day of June, 2021, which is the date that the

petition for writ of certiorari is due.

“Ceopeeiillee £ Shy
Jacqueline E. Shapiro
40 N.W. 3rd Street,
Penthouse One
Miami, FL 33128
Tel. 305-403-8207

Miami, Florida
June 2021
